                                            &.

 ,..v"r

                DEPARTMENT OF HEALTH             HUMAN SERVICES                     Office of Inspector General


..."4iG
                JAN     4 19                                                        Memorandum
      Date


      From

                Q.\L
                Richard P. Kusserow
                Inspector General
      Subject   Management Advisory Report: " Intraocular Lenses Purchased by Indian Health
                Servce Hospitals " OAI- 07-89- 01662
                Louis B. Hays
                Acting Admistrator
                Health Cae Financing Admistration


                The Offce of Inspector General (OIG) is currently examig prices for prosthetic
                devices paid by other   organtions and   in other countries '
                                                                           markets. Due to intense
                interest in Medicare reimbursement for intraocular lenses (IOLs), we are now
                releasing the study s fidings on IOLS purchased by Indian Health Servce (IHS)
                hospitals.


                BACKGROUND

                An IOL is used exclusively to replace the natural lens removed from the eye durig
                cataract surgery. Over 90 percent of all cataract surgery patients receive an IOL
                implant.

                The number of Medicare-funded cataract extractions with IOL implants increased
                from 819 788 in 1986 to 954 794 in 1987, a 16 percent increase. Data released by
                the Public Health Servce indicates this surgery has continued to increase into 1989
                with some moderation. Alowed charges for IOLs in ambulatory surgical centers
                average $350. Prices vary in other settings.

                Two previous OIG studies recommended that the Health Care Financing
                Adminstration (HCF A) establish a $200 reimbursement cap for IOLs. More
                recently, the OIG issued a Management Advisory Report (MA) focusing on IOLs
                purchased by the Veterans Administration and miltaryhospitals on the open market
                and IOLs purchased through the Federal Supply Schedule (FSS). The
                recommended that the HCF A use the information presented in adjusting rates on
                July 1 , 1990.

Page 2 - Lois B. Hays

Manufactuers awarded FSS contracts , are required to provide Federal agencies with
the best avaiable prices. Four manufacturers have negotiated contracts to offer
several diferent tyes and styles of IOLs on the FSS. In addition to the many multi-
piece posterior chamber lenses offered, one-piece posterior chamber and anterior
chamber lenses are also available. The FSS prices negotiated for these lenses are all
under $200, rangig from $95 to $198. The FSS allows for the purchase of lenses in
bulk or one at a  tie. Agencies using the FSS contact suppliers directly.
Procurement using the FSS is mandatory for most Government agencies (including
the IHS), unless a waiver is granted.


METODOLOGY

Inormation regarding the purchase of IOLs by IHS hospitals was gathered from the
only four IHS hospitals where cataract surgery is performed. These hospitals were
identifed by the IHS Senior Surgeon for Ophthalmology. Telephone intervews were
conducted with an ophthalmologist in each of the four hospitals. It was also
necessary to contact a procurement specialst in three of the four hospitals for
information the ophthalmologists were unable to provide.


FINDINGS

Th   ms hols J1hae           IOLs for an averge of $155.

In Fiscal Year 1989, the IHS hospitas paid an average of $155 for a total of 466
IOLs purchased from two well-known manufacturers. Neither manufacturer is
currently listed on the FSS. The average price of an IOL in each of the IHS
hospitals is listed below.


                             Hospital #1        $134.
                             Hospital #2        $166.
                             Hospital #3        $168.31
                             Hospital #4        $186.




The IRS hospitals negotiated prices for IOLs ranging from $125 to $278 per lens.
Only one hospital pays more than $200 for an IOL (see attachment). Overall
average prices ranged from $150 for multi- piece posterior chamber lenses to $196 for
anterior chamber lenses. Multi- piece posterior chamber lenses account for 416 (89
percent) of the lenses purchased in these hospitals. Even though one IHS hospital
has negotiated to purchase one- piece posterior lenses for $175 , none were purchased
in 1989.
Page 3 - Louis B. Hay

The IHS hospitals purchased 457 of their 466 (98 percent) IOLs for $200 or less. As
shown in the followig chart, IHS hospitals purchased 47 percent of their IOLs for
under $150, and 51 percent for prices rangig from $151 to $200.


                                IOLs Purchased

                              by I HS Hasp i ta Is
                   300


                                                                      Under $150 (47%)
                   250                   238
                                                                      $150 - $200 (51%)

                                                                      Over $200 (2%)
                   200


                   150



                  100




                                IOL Price Categories





Th   IOL maactuer are competie.

Ophthalmologists intervewed in all four IHS hospitals indicated that IOL
manufacturers are competitive and    wig  to lower prices to acquire more business.
Ophthalologists in two of the four facilties indicated price was a deciding factor in
the decisions to purchase IOLs outside the FSS. Comments by ophthalmologists
included:

       We start with contract bid   on the FSS, and ask other IOL companies to
      beat those prices.

       Lens companies will offer to meet or beat another company s price.

       We approached the IOL company and asked for lower prices or we would
      take our business elsewhere. The IOL company reduced their prices.
Page 4 - Lois B. Hays
On ms hopitl receies      er it     wi IOL J1haes.
One IHS hospital has recently negotiated with a lens manufacturer to receive a
complete surgical package with the purchase of each IOL. The surgical package was
designed by hospital staff, and provided many essential items needed for cataract
surgery. The package includes the IOL; a gown; towels; towel clips; eye , head and
body drapes; chai cover; basin; eye dropper; syrnges; eye pads; medicine glass;
gauze; instrument wipes; drugs used in cataract surgery; and a fiter needle.
Even though the purchase price for the IOL with the surgical package increases by
$60--from $125 to $185--the hospital pays less than $200 per lens. Hospital staff
indicated that individually purchasing the IOL and the items included in the surgical
package would cost the hospital in excess of $300 per patient.

When a hospital buys an IOL with the surgical package, $10 of the amount paid is
applied toward the purchase of a diamond kne used in cataract surgery.


RECOMMENDATIONS

The HCF A should consider the prices paid by IHS hospitals for IOLs in adjustig
Medicare IOL reimbursement rates on July 1 , 1990.

We would appreciate your comments on this report withi 30 days. If you have      any
questions please contact me or have your staf contact Barr Steeley at
Fr 646-3138.
Attachment
                                                    ATTACHMENT A





                  IOL Pres Negotite




                          ms Hospitls




                                        Tota
                                        1989     1989
Manufctrer    Lens Stle                 Volume   Prices


Hospit #1

Company A     Posterior Multi-   piec    177     $125
Company A     Posterior   Multi- piec            $185
Company A     Posterior   Multi- piec            $170
Company A     Anterior                           $170

Hospit #2
Company B     Posterior Multi-   piec            $169
Company B     Posterior Multi-   piec            $158
Company B     Posterior   Multi- piec            $143
Company B     Anterior                           $200

Hospital #3

Company B     Posterior Multi-   piec            $143
Company B     Anterior                           $278

Hospit #4
Company A     Posterior Multi-piece              $186
Company A     Anterior                           $186
